    .'J3/30/05          11:07 FAX 301 903 4656               CAPITAL REGION                - FORS FIVEA             1I001

DOE F 1325.8
  ( 89       '
EFG (07-90)


United States Government                                                                           Degartment of Ener
                               M  o
                               r am
                                 m                                                             .       Office of Inspector General

Memorandum
            DATE:        MAR 3 0 2005                                                   Audit Report No.: OAS-L-05-05
       REPLY TO
       ATTN OF:        IG-34 (A05SC023)
       SUBJECT:        Audit of the Spallation Neutron Source Project
                 TO:   Director, Office of Science, SC-1


                       The purpose of this report is to inform you of the results of our audit of the Spallation
                       Neutron Source (SNS) Project. The audit was initiated in November 2004. Fieldwork
                       was conducted through February 2005 at Department of Energy (Department)
                       Headquarters, Oak Ridge National Laboratory (Oak Ridge), and Brookhaven National
                       Laboratory (Brookhaven). The audit methodology is described in an attachment to this
                       report.

                       INTRODUCTION AND OBJECTIVE

                       The SNS Project is a multi-laboratory partnership with six laboratories involved in
                       various aspects of the project's design and construction. The project is considered to be
                       the next generation source for neutron scattering and related research in the physical,
                       chemical, materials, biological, and medical sciences. At $1.4 billion, SNS is the
                       largest construction project currently undertaken by the Department's Office of Science
                       (Science). While the SNS project is scheduled for completion in Fiscal Year (FY)
                       2006, full power to the beam lines and full utilization of SNS is not expected until
                       FY 2008. The objective of our audit was to determine whether the Department is
                       properly managing the SNS Project, including construction completion and transition to
                       a fully operational facility.

                       CONCLUSIONS AND OBSERVATIONS

                       We observed that significant progress has been made toward finishing the SNS Project,
                       with over 80 percent of the work complete at the time of our review. While nothing
                       came to our attention to indicate that the Department was not properly managing the
                       SNS Project, the project has experienced difficulties in coordinating deliverables with
                       the partner laboratories and the use of contingency funds.

                                                      Laboratory Deliverables

                       In two instances, deliverables from SNS partner laboratories were not adequately
                       coordinated. In one example, cryomodule vessels provided by the Thomas Jefferson
U)/   oU/ U0     .L.   UO       .    Ux -__U*
                                    OhA'•A      JU          .i   ZA1iL IJa   1.-.       £i    A-. A   .ý     M




                 National Accelerator Laboratory were not welded using American Society of
                                                                                     to follow. The
               ..Mechanical Engineers standards that the SNS Project was required
                                                                                               included
                 Federal SNS Pioject Director did not ensure that the welding standards were
                 in the memorandum of agreement to provide the cryomodule vessels. The Project
                 Director told us that he was aware of the problem with vessels and has initiated a safety
                 analysis prior to making a formal decision to accept the cryomodules. In another
                 instance, Brookhaven was not notified by the Federal SNS Project Director that the
                 schedule for delivery of SNS diagnostics equipment was shortened by up to six months.
                 To meet the accelerated delivery dates, Brookhaven was forced to rework the
                 equipment production plan to shift priorities and to ensure on-time commissioning of
                 the accumulator ring.

                                                     Contingency Management

                SNS Project contingency was not always used in accordance with Departmental policy
                guidance and utilization rates have been on-going concerns. In particular, items were
                procured with contingency funds that were not in the original scope of the project, such
                as $16 million to upgrade the facility with a superconducting linear accelerator.
                Additionally, even though not permitted by Departmental policy, $848,000 in
                contingency funding was also used to cover travel and relocation costs for partner
                laboratory.

                Various Science reviews have also expressed concern with the level of contingency and
                advised the SNS Project officials to find ways to minimize its use. A November 2004
                review, for example, reported that the remaining cost risk exceeded estimate-at-
                completion contingency by approximately $400,000. Of an initial contingency of
                around $255 million, approximately $18 million remains. While a May 2004 review
                challenged the project to increase contingency to $20 million, the project fell short of
                this amount by $2 million. In light of this shortfall, the spending patterns we observed
                increases the risk that remaining contingency may be insufficient to complete the
                project within the approved baseline.

                SUGGESTED ACTIONS

                Several major components of the SNS Project still need to be installed and tested before
                June 2006, such as the superconducting linac, accumulator ring, and mercury target
                system. Given the challenges still ahead, we suggest that the Director, Office of
                Science, require the Federal SNS Project Director to:

                            1. Evaluate specifications and schedules for all remaining deliverables and
                               confirm that partner laboratories understand what is expected of them; and,




                                                                      2
   -   2. Discontinue the use of contingency to modify t.e scopebf the project and
          evaluate whether the remaining contingency is adequate to address
          remaining cost and completion risks.

The concerns and suggestions noted above were discussed with officials from the
Office of Science on.March 11, 2005. With regard to the suggested actions, officials
stated that they would increase their attention in these areas. Since this letter report
does not contain formal recommendations, a formal response is not required.

We appreciate the cooperation of your staff during our review. If you have any
questions regarding our audit, please contact Brian Boos al (301) 903-3858 or
Bill Lubecke at (720) 962-7546.




                                               Rickey    . Hass, Director
                                               Science, Energy, Technology
                                                 and Financial Audits
                                               Office of Audit Services
                                               Office of Inspector General

Attachment

cc: Director, Office of Engineering and Construction Management, ME-90
    Team Leader, Audit Liaison, ME-100
    Audit Liaison, SC-67




                                                3
                                                                               Attachment
.,METHODOLOGY

  To accomplish the audit objective, we:

       *    Held discussions with Headquarters officials from the Office of Science to
            gain an understanding of the SNS Project;

       *    Held discussions with SNS Project personnel at Oak Ridge and Brookhaven
            National Laboratories, reviewed pertinent Project documentation, toured the
            SNS facilities, and attended a November 2004 Office of Science review;

       *    Evaluated contingency usage, milestone completion, earned value reporting,
            quality assurance, and procurements for the Project;

        * Evaluated plans for transitioning into operations and outreach efforts to attract
          potential users of SNS; and,

        *   Reviewed performance related information to de:ermine compliance with the
            Government Performanceand Results Act of 1993.

  The audit was performed in accordance with generally accepted Government auditing
  standards for performance audits and included tests of internal controls and compliance
  with laws and regulations to the extent necessary to satisfy the audit objective. Because
  our review was limited, it would not necessarily have disclosed all internal control
  deficiencies that may have existed at the time of our audit. Since conputer processed
  data was not the primary support used to meet our audit objective, we performed a
  limited assessment of data reliability. We identified and evaluated SNS performance
  measures and found that they were being used to measure Project performance.

  An exit conference was held on March 11, 2005.




                                                4
   04/04/05            11:31 FAX 301 903 4656               CAPITAL REGION                                          ~o001



DOE F 1325.8
,G(8.a-89)
       07-etof                                                                                                  E
United States Government                                                                          Department of Energy


 Memorandum
            DATE:      APR0 4 2005
      REPLY TO:        IG-34-(A05SC023)

       SUBJECT: Final Report Package for "Audit of the Spallation Neutron Source Project"
                Audit Report No.: OAS-L-05-05

                 TO:   George Collard, Assistant Inspector General for Audit Operations
                       Attached is the required final report package on the. subject audit. The pertinent details are:

                           1.     Actual Staff days:      144.8

                                  Actual Elapsed days: 148

                       2. Names of OIG and/or contractor audit staff:

                                   Assistant Director:    Kevin Majane
                                   Team Leader:           Bill Lubecke
                                   Auditor-in-Charge:     Brian Boos
                                   Audit Staff:           Dick Marvin


                       3. Coordination with Investigations and Inspections:

                                   Investigations

                                   Reggie France (10/22/04; 2/28/05)
                                   Walter Warren (10/22/04; 2/28/05)
                                   Brenda Froberg (2/28/05)

                                   Inspections

                                   Fatima Pashaei (10/22/04; 2/28/05)



                                                                          Rickey R. Hass, Director
                                                                          Science, Energy, Technology,
                                                                            and Financial Audits
                                                                          Office of Audit Services
                                                                          Office of Inspector General

                        Attachments:
                        1. Final Report
                        2. Monetary Impact Report
                        3. Audit Project Summary Report
                        4. Audit Database Information Sheet
04/04/05         11:32 FAX 301 903 4656                       CAPITAL REGION                                                     1]006




                               MONETARY IMPACT OF REPORT NO.: OAS-L-05-05


          1. Title of Audit:     Audit of the Spallation Neutron Source Project

          2. Region/Office:      Science, Energy. Technology, and Financial Audits

          3. Project No.:        A04SC023

          4. Type of Audit:

                   Financial:                                              Performance:       X
                      Financial Statement                                    Economy and Efficiency                        X
                      Financial Related                                      Program Results
                   Other (specify type): _

    5.
                                                                                                                    MGT.        POTENTIAL
                 FINDING                    BETTER USED                             QUESTIONED COSTS              POSITION       BUDGET
                                                                                                                                 IMPACT
                                                     Recurring
    (A)              (B)          (C)        (D)       (E)         (F)         (G)           (H)          (I)        (J)           (K)
                     Title        One       Amount     No.        Total     Questioned   Unsupported     Total    C=Concur        Y=Yes
                                  Time       Per       Yrs.      Amount      Portion       Portion                N=Noncon        N=No
                                             Year                                                                  U=Undec
           n/a                                                   n/a                                   n/a




    TOTALS-ALL FINDINGS                                                                   0                      . .....




           6. Remarks: There is no current monetary impact or potential future savings.


           7. Contractor: N/A                                          10. Approvals:
           8. Contract No.:                                                  Division Director
                              N/A                                            & Date 'l                                     /(
           9. Task Order No.:                                                Technical Advisor &
                                N/A                                          Date
 04/04/05       11:32 FAX 301 903 4656                                                                CAPITAL REGION                                                                                                      @007

                                                                    Office of the Inspector General (OIG)
                                                               Audit Project Office Summary (APS)
                                                                                                                                                                                                                          Page 1
Report run on:                                March 30, 2005 2:04 PM


  Audit#: A05SC023                        Ofc:             FOA            Title:              SPALLATION NEUTRON SOURCE PROJECT


                                                                   * .       -. ;:.       .****              ilestones                  ****                                                  .            -


                                                                          Planned      End of Survey       Revised                                                                           Actual
                                                                         -------------------      ------------
                                                                                    ---------- r-----    .        -----------


  :Entrance Conference:.....                                        01-OCT-04                                                                    02-NOV-04                            02-NOV-04
                                                                                                                                                 18-FEB-05                            18-FEB-05
   Survey:..................
                                                                                                                                                                                      11-MAR-05
   Draft Report:.............
   Completed (With Report):.                                        30-SEP-05                             18-FEB-05                              18-FEB-05                            30-MAR-05                         R.)

     ---------          Elapsed Days:                                                364                                 108                                                 148
                                                                                                                                                                Elap. Less Susp:

  ,Date Suspended:                                                                                    Date Terminated:
   Date Reactivated:                                                                                  Date Cancelled:
   DaysSuspended(Cur/Tot):                                                                      ) Report Number:                                 OAS-L-05-05
   Rpt Title:                                                                                     Report Type:                                   LTR          LETTER REPORT

  :AUDIT OF THE SPALLATION NEUTRON SOURCE PROJECT



                                                                          ***: Audit
                                                                               ..    Code.-: and Pe sonnl                                                                                          .                   ;::.
   Class:           PER      PERFORMANCE
   Function: 013             PROJECT MANAGEMENT
   MgtChall: 103             PERFORMANCE/PROJECT:                                                                                                530              MAJANE
   Site:            MSA      MULTI-SITE AUDIT                                                                                    AIC:            60               BOOS

    ecMiss:         SCI      SCIENCE                                                                                 Team Ldr:                   232              LUBECKE
   Preslnit: IFP             IMPROVED FINANCIAL P                                                                    Tech Adv:                   544              ACTON

                                                           :                                                                                                                      .
                      ^ - i..   i:L-:
                                      i ..i   ....
                                                     .-!   !. .'         .T.'•"•:
                                                                          :       *.
                                                                                 IV*
                                                                                               lask TioFe-4
                                                                                                     n · ...                        ., ****
                                                                                                                                   o.                                 ".::.^ .        ^*.i
                                                                                                                                                                                       . •....Tsi·:
                                                                                                                                                                                              ,:..: .          *.. "

         Task No:
         Task Order Dt:                                                                               CO Tech.. Rep:
         Orig Auth Hrs:                                                                               Orig Auth Costs:
         Current Auth:                                                                                Current Auth Cost:
         Tot Actl IPR Hr:                                                                             Tot Actl Cost:


                                                        :     : :                '
                                                                                              * I     Time Charge                      *44**.0       :           ..

                          r p
                    f: :i!•i    /c:
                                 ·
                             .:;1in           i:.i: · I "f ;: ;Jy                                 I    ': ' ::[.'::
                                                                                                                 .;..     t ::li ..a e :, -:
                                                                                                                 ·I, . • .•i              : :.:                            : '... :. ·.: '..
                                                                                                                                             .·..•I .: ! .:I: ::",'. .. :..:."                *
                                                                                                                                                                                          : . :....:.:..
                         EPmiConl                    Name                                 as                   .Last_            Dateon

                          LUBECKE,                   W                                        7.0                 05-FEB-05
                          MARVIN, R                                                        59.4                   19-MAR-05
                          BOOS, B                                                          78.4                   19-MAR-05
                           Total:                                                         144.8

                                ...                                       .. .        A   .

                                      :                                                                                                                                       "                        .
          ::
     •i:;i*':   '        BROOKHAVEN
                           ~i.:i:;.::     :.
                                        NATIONAL LABORATORY.
                         BROOKHAVEN NATIONAL LABORATORY
04/04/05     11:32 FAX 301 903 4656             CAPITAL REGION                                           9008




                             AUDIT DATABASE INFORMATION SHEET

       1. Project No.:     A05SC023

       2. Title of Audit: Audit of the Spallation Neutron Source Project

       3. Report No./Date OAS-L-05-05/March 30, 2005

       4. Management Challenge Area: Performance/Project Management

       5. Presidential Mgmt Initiative: Improved Financial Performance

       6. Secretary Priority/Initiative:   Science

       7. Program Code: SC

       8. Location/Sites: Multi-Site Audit - Headquarters; Oak Ridge National Laboratory;
                          Brookhaven National Laboratory

       9. Finding Summary:

       We observed that significant progress has been made toward finishing the SNS Project, with
       over 80 percent of the work complete at the time of our review. While nothing came to our
       attention to indicate that the Department was not properly managing the SNS Project, the
       project has experienced difficulties in coordinating deliverables with the partner laboratories
       and the use of contingency funds.

           8. Keywords: SNS
                        Spallation Neutron Source
                        Project Management
                        Oak Ridge National Laboratory
                        Brookhaven National Laboratory
